                      ort




          YEAR 2000 COMPUTING PROBLEM REPORTS:
                    AUGUST 1997 REPORT



Report No. 98-077                         February l&1998




              Office of the Inspector General
                  Department of Defense
   Additional Copies
   To obtain additional copies of this audit report, contact the Secondary Reports
   Distribution Unit of the Analvsis. Planninn. and Technical Support Directorate at
   (703) 604-8937 (DSN 664-8937)‘or FAX 7703) 604-8932.            **

   Suggestions for Future Audits
   To suggest ideas for or to request future audits, contact the Planning and
   Coordination Branch of the Analysis, Planning, and Technical Support
   Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
   and requests can also be mailed to:
                       OAIG-AUD (ATTN: APTS Audit Suggestions)
                       Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                       Arlington, Virginia 22202-2884

   Defense Hotline
   To report fraud, waste, or abuse, contract the Defense Hotline by calling
   (800) 424 9098; by sending an electronic message to
   Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
   Pentagon, Washington, D. C. 20301- 1900. The identity of each writer and caller
   is fully protected.




Acronyms
CIO                  Chief Information Officer
OMB                  Office of Management and Budget
Y2K                  Year 2000
                                      INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                        400 ARMY NAVY DRIVE
                                      ARLINGTON. VIRGINIA 22202




                                                                               February 18, 1998

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (COMMAND, CONTROL,
               COMMUNICATIONS, AND INTELLIGENCE)

SUBJECT: Audit Report on DOD Year 2000 Computing Problem Reports: August 1997
         Report (Report No. 98-077)


        We are providing this audit report for information and use. This report is the first of a
series, the primary purpose of which is to provide the DOD Chief Information Officer and
other senior DOD managers with an independent assessment of DOD progress, including
identifying areas of concern, related to its year 2000 efforts.
       We considered management comments on a draft of this report when preparing the final
report. Comments on the draft of this report conformed to the requirements of DOD Directive
7650.3 and left no unresolved issues. Therefore, no additional comments are required.

        We appreciate the courtesies extended to the audit staff. Questions on the audit should
be directed to Ms. Mary Lu Ugone, Audit Program Director, at (703) 604-9049
(DSN 664-9049); Mr. James W. Hutchinson, Audit Project Manager, at (703) 604-9060
(DSN 664-9060); or Mr. Timothy J. Harris, Audit Team Leader, at (703) 604-9053. If
management requests, we will provide a formal briefing on the audit results. See Appendix D
for the report distribution. The audit team members are listed inside the back cover.




                                             Robert J. Lieberman
                                          Assistant Inspector General
                                                 for Auditing
                           Office of the Inspector General, DOD

Report No. 98-077                                                    February 18, 1998
  (Project No. 7RE-6023)

      Year 2000 Computing Problem Reports: August 1997 Report

                                  Executive Summary

Introduction. Information technology systems have typically used two digits to
represent the year, such as “97” representing 1997, to conserve electronic data storage
and reduce operating costs. With the two-digit format, however, the year 2000 is
indistinguishable from 1900. As a result of that ambiguity, computers and associated
systems and application programs that use dates to calculate, compare, and sort could
generate incorrect results when working with years after 1999.

This is one of a series of reports being issued by the Inspector General, DOD, in
accordance with an informal partnership with the Chief Information Officer, DOD, to
monitor DOD efforts to address the year 2000 computing challenge.

Audit Objectives. The overall audit objective was to evaluate the DOD year 2000
oversight actions and reports submitted to the Office of Management and Budget.
Specifically, we determined whether the DOD quarterly reports to the Office of
Management and Budget were reasonable and accurate. We also evaluated the internal
reporting requirements and process used by DOD to monitor and oversee the DOD year
2000 efforts.

Audit Results. The DOD Component August 1997 reports on year 2000 did not
provide all the required information and were not fully reliable. Accordingly, DOD
does not yet have an adequate baseline to effectively measure its year 2000 progress.
The audit results are detailed in Part I.

Summary of Recommendations. We recommend an update to the DOD Year 2000
Management Plan that reflects changes in reporting requirements and includes adequate
procedures on how year 2000 quarterly reports should reconcile.

Management Comments. The Acting Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) concurred with the recommendation and
stated that the revised DOD Year 2000 Management Plan, which is planned to be issued
in February 1998, would be updated as recommended.
Table of Contents

Executive Summary

Part I - Audit Results
      Audit Background                                              2
      Audit Objectives                                              4
      Year 2000 Information Technology System Reporting             5

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology                                       12
      Appendix B. Prior Coverage and Related Publications           13
      Appendix C. DOD Component August 1997 Reports                 18
      Appendix D. Report Distribution                               19

Part III - Management Comments
      Office of Assistant Secretary of Defense (Command, Control,
         Communications, and Intelligence) Comments                 24
Part I - Audit Results
Audit Background
    The year 2000 (Y2K) problem is rooted in the way dates are recorded and
    computed in information technology systems. For the past several decades,
    computer systems have typically used two digits to represent the year, such
    as “97” representing 1997, to conserve on electronic data storage and reduce
    operating costs. With the two-digit format, however, the Y2K is
    indistinguishable from 1900. As a result of the ambiguity, computers and
    associated system and application programs that use dates to calculate, compare,
    or sort could generate incorrect results when working with years after 1999.

    DOD Y2K Management Strategy. In his role as the DOD Chief Information
    Officer (CIO), the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) issued the “DOD Year 2000 Management
    Plan” (the Plan) in April 1997. The Plan provides the overall DOD strategy and
    guidance for inventorying, prioritizing, fixing, or retiring systems, and for
    monitoring progress. According to the Plan, the CIO has overall responsibility
    for overseeing the DOD solution to the Y2K problem. Each DOD Component is
    responsible for awareness, assessment, renovation, validation, and
    implementation action. The Plan includes a description of the five-phase Y2K
    management process and designates the Defense Integration Support Tools
    database as the official repository of DOD Component information technology
    systems data.

            The Five-Phase Management Process. Each of the five phases listed
    below represents a major Y2K program activity or segment. Target completion
    dates range from December 1996 through November 1, 1999.

                  l Phase I - Awareness. Organization and planning take place.
    Target completion date: December 1996.

                   l Phase II - Assessment.   Scope of Y2K impact is identified and
    system level analyses take place. Target completion date: June 1997.

                  l Phase III - Renovation. Required system fixes are accomplished.

    Target completion date: December 1998.

                  l  Phase IV - Validation. Systems are confirmed as Y2K compliant
    through assorted testing and compliance processes. Target completion date:
    January 1999.

                    l Phase V - Implementation. Systems are fully operational after

    being certified as Y2K compliant. Target completion date: November 1, 1999.

           Defense Integration Support Tools Database. Originally designed to
    support the planning and execution of the DOD automated information system

                                        2
migration strategy, the Defense Integration Support Tools database was selected
to provide DOD-wide Y2K-related information that DOD managers could use to
track and monitor the transition to Y2K compliance of mission-critical and other
designated systems. The Defense Integration Support Tools database,
maintained by the Defense Information Systems Agency, contains data on
designated DOD Component information technology systems. The information
includes hardware platforms, operating systems, applications languages,
communications, and interfaces.

Y2K Reporting Requirements. DOD Components are required to submit Y2K
quarterly reports to the CIO to satisfy both DOD and Office of Management and
Budget (OMB) requirements.

         DOD Reporting Requirements. On March 12, 1997, the CIO issued
the memorandum “Year 2000 Refined Reporting Requirements for DOD,”
which established minimum, quarterly reporting requirements for Y2K
assessment and progress across DOD. The purpose of the reporting requirement
was to provide the CIO of DOD and CIOs of DOD Components with the
visibility necessary to ensure a thorough and successful transition to Y2K
compliance for all DOD systems. The DOD Components are required to report
the status of their Y2K efforts to the CIO of DOD each quarter, beginning
April 18, 1997. The CIO of DOD identified 23 DOD Components that are
required to report on the status of systems that have been entered into the
Defense Integration Support Tools Database. The information reported is
intended to show the status of DOD Y2K efforts and is being used by the CIO of
DOD to perform oversight for DOD Y2K efforts and to fulfill OMB reporting
requirements at the DOD level.

        OMB Reporting Requirements. On May 7, 1997, OMB issued the
“Memorandum on Computer Difficulties Due to the Year 2000 -- Progress
Reports. ” The purpose of the memorandum is to provide Y2K progress reports
to Congress and the public. It requires heads of selected Government agencies
to report on the status of Y2K efforts each quarter, with the initial report due
May 15, 1997. Each agency is required to report on mission-critical systems,
including information on the number of systems that are Y2K compliant, being
replaced, being repaired, and being retired. As of July 3 1, 1997, DOD reported
3,695 mission-critical systems to OMB. Of those systems, 652 were already
Y2K compliant, 267 were to be replaced, 2,593 were being repaired, and 183
were to be retired. The total cost of the DOD Y2K effort was estimated
at $1.4 billion. In addition, DOD reported that, to date, no DOD Component
has reported delayed schedules for mission-critical systems. Appendix C
contains the supporting data of the August 1997 Y2K report, which was
submitted to OMB on August 15, 1997.




‘The 23 DOD Components include all Defense agencies and the Services. Some
 of the smaller DOD agencies are consolidated into 1 of the 23 DOD
 Components.

                                    3
Audit Objectives
    The overall audit objective was to evaluate the DOD Y2K oversight actions and
    reports submitted to OMB. Specifically, we determined whether the DOD
    quarterly reports to OMB were reasonable and accurate. We also evaluated the
    internal reporting requirements and process used by DOD to monitor and
    oversee DOD Y2K efforts. Because of the urgency of reporting the audit results
    to senior DOD management, we did not formally evaluate related management
    controls. See Appendix A for a discussion of the scope and methodology and
    Appendix B for a summary of prior coverage.




                                       4
           Year 2000 Information Technology
           System Reporting
           The DOD Component August 1997 Y2K reports did not provide all the
           required information and were not fully reliable. The reports lacked
           required and reliable information because DOD did not establish clear
           reporting guidance and requirements. Accordingly, DOD has not
           established an adequate baseline to effectively measure its Y2K progress.


Y2K Quarterly Reporting
    DOD Quarterly Reports to OMB. After consolidating DOD Component reports,
    the CIO submitted the first two DOD-level reports to OMB on May 15 and
    August 15, 1997. The following table provides a comparison of the total number
    of mission-critical systems reported to OMB.

                   Reported Status of DOD Mission-Critical Systems

                                             First Quarter    Second Quarter
                                              (Mav 1997)       (August 1997)

      Total mission-critical systems            3,962              3,695
      Already Y2K compliant                       582l               652
      Being replaced                              4732               267
      Being repaired                            2,752l             2,593
      Being retired                               487l               183
                    3
      Undetermined                                 141’

                ‘Changes anticipated as assessments are completed.
                2Not included in total. Entries may have been reported twice
                3Category reported only for First Quarter


    The DOD Y2K report to OMB in August 1997 showed progress toward ensuring
    its information technology systems are Y2K compliant. The number of
    compliant systems increased by 70 from May to August 1997. However,
    conclusions based on further comparison would be questionable because the
    information used to compile the DOD report to OMB was not fully complete or
    reliable.

    Component Quarterly Reports. Although DOD Component reports were not
    fully complete or reliable, the CIO staff stated that they were substantially more



                                         5
Year 2000 Information Technology System Reporting

      complete and accurate than the first reports because the DOD Components better
      understood the reporting requirements. However, our analyses of the August
      1997 reports did not confirm that statement.

             Completeness of Reports. The DOD Component reports did not
      substantially improve from the previous quarter. Our analysis showed that only
      one DOD Component submitted a complete report for May 1997. Of the 23
      DOD Components required to submit an August 1997 report, initially, 14 were
      incomplete, 4 were complete, and 5 did not submit a report, but instead,
      requested that the CIO staff extract the report data from the Defense Integration
      Support Tools database. The 14 incomplete reports were missing required Y2K
      information such as:

                     l   the number of compliant systems,

                     l   the number of noncompliant systems in each of the required five
      phases, and

                     l   the cost to repair noncompliant systems

      The incomplete reports were also missing infrastructure devices controlled by
      information technology, such as personal computers, file servers, fax machines,
      elevators, and access security systems.

              Reliability of Reports. The DOD Component Y2K reports for August
      1997 were unreliable. Of the 23 DOD Components required to submit quarterly
      reports, 11 submitted at least one report that did not reconcile.2 The quarterly
      reports did not reconcile because the reporting requirements memorandum that
      the DOD CIO issued did not provide adequate procedures on how the reports
      should balance. Further, for DOD Components that submitted a report that did
      not reconcile, CIO staff needed to resolve discrepancies with the DOD
      Components before a report could be submitted to OMB. The reconciliation
      process is time-consuming and uses resources that could be better spent on CIO
      oversight responsibilities and the Y2K effort. We believe that reporting
      guidance, which includes sufficient reconciliation procedures, is needed in the
      DOD Y2K Management Plan to reduce the amount of resources being expended
      to reconcile the quarterly reports.

      Procedures and Requirements for DOD Component Y2K Reports.
      Reporting procedures and requirements for Y2K reports need to be improved to
      increase the reliability and usefulness of the information being collected.



       ‘For a second quarter report to reconcile, the number of noncompliant systems
       minus the number of systems that are being retired should equal the number of
       systems that are placed in the five phases. However, the reconciliation
       procedures were changed for third quarter reporting in that the number of
       systems being replaced will also be subtracted from noncompliant systems.

                                            6
                         Year 2000 Information Technology System Reporting

        Procedures for Y2K Reports. Although a comparison of the numbers
provided to OMB in the first two quarterly reports indicated that DOD was
progressing in identifying and fixing systems with Y2K problems, such a
conclusion may be misleading because the procedures used for determining the
numbers reported to OMB differed substantially. The number of systems and
the various phases they were in were changed by the Components in response to
continuing refinement in reporting procedures. For example, the Navy reported
899 mission-critical systems for May 1997 and 289 for August 1997.
Accordingly, meaningful comparisons between the first two quarterly reports
submitted to OMB were difficult. The CIO acknowledged that different
reporting methods were used for the August 1997 quarterly report to OMB, and
stated that the report will provide a stable baseline against which future reports
can be meaningfully compared. However, we believe that the reporting
procedures have to be better defined in the DOD Y2K Management Plan (the
Plan) before adequate comparison can occur between the reporting periods.

        Reporting Requirements and Definitions. The wide disparity in the
number of systems that the DOD Components reported (see Appendix C)
indicates that the DOD Components did not consistently interpret the CIO
reporting requirements. The Plan provides definitions for “system” and
“mission-critical, ” but the definitions are nonspecific and open to interpretation.
Because DOD Component interpretations of those definitions were not uniform,
the usefulness of DOD Component reports for oversight purposes by either the
DOD CIO or OMB was questionable.

               Total Systems Reported. A Y2K system is defined in the Plan
as:

           An automated process that uses information technology such as
           computer hardware and software to perform a specific function,
           application, or service.

The total number of systems reported by DOD Components varied greatly. For
example, the Army reported 13,687 systems for August 1997, while the Navy and
the Air Force reported 1,970 and 2,584 systems, respectively. It is reasonable to
conclude that the Army does not have almost seven times more information
technology systems than the Navy or five times more systems than the Air Force.
Conversely, some DOD Components reported no or few systems. For example,
the Armed Forces Information Service and the Defense Contract Audit Agency
reported 0 and 1 system, respectively.

                Mission-Critical Systems Reported. The Plan defines
mission-critical as:

           A system that when its capabilities are degraded, the organization
           realizes a resulting loss of a core capability.

The definition of mission-critical is important because OMB requires Y2K
information for all mission-critical systems. The number of mission-critical
systems reported varied greatly. In the August 1997 report, DOD reported to
OMB 3,695 mission-critical systems. One DOD Component, the National Security
                                       7
Year 2000 Information Technology System Reporting

      Agency, reported 1,573 mission-critical systems, or about 40 percent of the total
      number of mission-critical systems that DOD reported. In comparison, the Army,
      the Navy, and the Air Force reported 367, 289, and 395 systems as mission
      critical, respectively. We noted that six DOD Components judged 100 percent of
      their systems as being mission critical, while three DOD Components reported
      fewer than 10 percent of their systems as mission critical. Conclusively, the DOD
      Components needed clearer definitions of reporting terminology to reduce
      misinterpretations. DOD Components may have submitted incomplete and
      unreliable information because of the uncertainty of which systems to report and
      whether to report them as mission critical.

      Management Action. During our audit, senior DOD officials became aware that
      vague definitions negatively affected the usefulness and accuracy of Y2K reporting
      and have begun to take corrective action. On October 16, 1997, the DOD Y2K
      Steering Committee, which is composed of senior DOD managers and is chaired by
      the Deputy Secretary of Defense, assigned the responsibility of standardizing
      definitions for quarterly reporting to the Assistant Secretary of Defense
      (Command, Control, Communications, and Intelligence).

      Initial Data for Next Reports. According to CIO staff, initial input for the
      next round of reports was significantly improved over the August 1997 reports.
      Citing only one incomplete report, CIO staff stated that the DOD Components
      submitted improved reports because reporting guidance and direction issued by
      the CIO have become stable. We have not yet evaluated the DOD Component
      November 1997 quarterly reports, but we agree that positive changes were made
      to the reporting process and specific reporting procedures. The next report in
      our series of audit reports on Y2K issues will address, if appropriate, further
      areas of concern related to quarterly Y2K reporting.


Summary
      Initial problems are to be expected in establishing any new reporting process,
      especially on a DOD-wide basis. Additionally, both OMB and DOD established
      quarterly reporting requirements, but neither organization published specific
      guidance on how the quarterly reports were to be formulated. Further, DOD
      definitions provided for Y2K reporting purposes were too broad. Accordingly,
      DOD Component reports were not fully complete or reliable. More important,
      reporting consistency was insufficient to enable useful comparison of quarterly
      reports.

      Specific reporting guidance and requirements have evolved since the
      requirement for quarterly reporting was established. The dissemination of that
      guidance by CIO staff was informal; that is, by electronic mail and telephone
      conversations. Because Y2K quarterly reporting guidance and procedures have
      matured and stabilized, they need to be formally issued to DOD organizations.
      We agree with CIO staff that the best mechanism for formal distribution is a
      revised DOD Plan. The revised Plan should set forth specific procedures for


                                           8
                             Year 2000 Information Technology System Reporting

    DOD Component Y2K reporting and include clarified definitions. Until Y2K
    quarterly reports become stable and consistent, the reports will continue to be of
    limited value for oversight purposes.


Management Comments on the Finding and Audit Response
    Management Comments on Completeness of DOD Component Reports. The
    Acting Assistant Secretary of Defense (Command, Control, Communications,
    and Intelligence) provided comments on the draft report discussion of the
    completeness of DOD Component reports, stating that the second quarterly
    reports were more complete than the first quarterly reports, and that the
    reporting of embedded chip information was the only “incomplete” category of
    data not submitted by the Components. The complete text of management
    comments is in Part III of this report.

    Audit Response. We agree with the Acting Assistant Secretary that the second
    quarterly reports were more complete than the first quarterly reports. However,
    we continue to believe that the initial submission of incomplete reports by 14 of
    23 DOD Components indicates substantial uncertainty and confusion about the
    Y2K reporting process, procedures, and requirements. We do not agree that
    embedded chip information was the only category of information not initially
    reported. As stated in the draft report, other categories of data which were
    initially omitted included the number of compliant systems, the number of
    noncompliant systems in each of the five phases, and the cost to repair
    noncompliant systems.

    Management Comments on the Usefulness of Information Collected.
    Regarding the utility of collecting numbers of personal computers and
    communications system components, the Acting Assistant Secretary recognized
    that some of the information required may not be ideal for oversight purposes,
    but he believes that the collection of that information is necessary to help ensure
    that all DOD information technology equipment is evaluated for Y2K
    compliance.

    Audit Response. In the draft report, we concluded that some data that the CIO
    required was of little use for oversight purposes. Although the primary concern
    of OMB personnel was mission-critical systems, they also required a brief
    narrative summarizing progress made in other infrastructure systems that relied
    on embedded microchips, such as elevators, security systems, and biomedical
    devices. Within the infrastructure reporting category, the CIO also requires the
    DOD Components to report personal computers, file servers, and
    communications hardware and software modules. We questioned the need for
    that additional reporting requirement as the information did not provide a gauge
    for monitoring progress because the total number of DOD personal computers
    and network components had not been defined. Additionally, because the DOD
    definition of “system” is broad and open to interpretation, DOD had no
    assurance that the personal computers and networks reported in the
    “infrastructure” category were not also reported as part of other information
    technology systems.
                                         9
Year 2000 Information Technology System Reporting

      We continue to question whether watching aggregate numbers grow provides
      valuable oversight information. However, upon reconsideration, we agree that
      oversight options for ensuring that all of the information technology resources
      for DOD are limited and that some degree of oversight is better than none.
      Additionally, on January 20, 1998, OMB issued new quarterly reporting
      requirements which now specifically require telecommunications systems to be
      reported in the “infrastructure” category. Further, on February 4, 1998, the
      Acting Assistant Secretary’s staff orally committed to include in the revised
      DOD Plan specific cautions to the DOD Components about possible “double
      counting” in their quarterly Y2K reports. Based on those factors, the issue was
      omitted from our final report.


Recommendations for Corrective Action and Management
Comments
      Deleted Recommendation. As a result of management comments, we deleted
      draft Recommendation 2. Draft Recommendation 1. is now unnumbered.

      We recommend that the Assistant Secretary of Defense (Command,
      Control, Communications, and Intelligence), in the role of the DOD Chief
      Information Officer, update the DOD Year 2000 Management Plan to
      reflect changes in reporting requirements and to include adequate
      procedures on how year 2000 quarterly reports should reconcile.

      Management Comments. The Assistant Secretary concurred and stated that
      the DOD Y2K Management Plan would be updated accordingly. The Assistant
      Secretary anticipates issuance of the updated Management Plan in February
      1998. The complete text of management comments is in Part III of this report.




                                         10
Part II - Additional Information
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed the reports that DOD Components submitted
    to the CIO for the first and second reporting quarters, ending April 30 and
    July 3 1, 1997, respectively. We evaluated the completeness and reliability of
    the reports in accordance with CIO reporting requirements and the requirements
    stated in the DOD Y2K Management Plan. We also evaluated the usefulness of
    the report information for oversight purposes. We interviewed personnel within
    the Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) who are responsible for issuing reporting guidance and collecting
    the Y2K information from the DOD Components and submitting the information
    to OMB. We also interviewed personnel within the DOD Components who are
    responsible for the Y2K reporting. The scope of the audit was limited in that
    we did not review the management control program because DOD has
    acknowledged the Y2K computing problem as an area with material
    management control weaknesses and further reporting on those weaknesses
    would be redundant.

    This is one of a series of reports being issued by the Inspector, General, DOD,
    in accordance with an informal partnership with the Chief Information Officer,
    DOD, to monitor DOD efforts to address the Y2K computing challenge. For a
    listing of audit projects addressing this issue, see the Y2K webpage on IGNET
    (at http://www.ignet.gov/ ).

    Use of Computer-Processed Data and Statistical Sampling. We did not use
    computer-processed data or statistical sampling procedures for this audit.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from July through October 1997 in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DOD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available on request.




                                       12
Appendix B. Prior Coverage and Related
Publications

General Accounting Office
    The General Accounting Office has conducted several audits related to Y2K
    issues. The audits are summarized below.

    General Accounting Office Report No. AIMD-98-35 (OSD Case No. 1484),
    “Defense Computers: Air Force Needs to Strengthen Year 2000
    Oversight,” January 16, 1998. Congress requested the review of the
    Air Force Y2K program. The review focused on Air Force oversight of its
    Y2K program and the appropriateness of its strategy and actions for ensuring
    that the Air Force will successfully address the Y2K problem. The Air Force
    has taken a number of positive actions toward fulfilling its Y2K oversight
    responsibilities. At the same time, the Air Force had not yet adequately
    addressed several critical issues that would ensure that it is well-positioned to
    deal with the later, and more difficult, phases of Y2K correction. The review
    showed that some Air Force components are not adequately planning for the
    testing phase of their Y2K effort and developing contingency plans. Some Air
    Force components are also taking conflicting approaches toward determining the
    actual impact of the program status to their system interfaces. If the Air Force
    does not promptly address and take consistent action on those issues, it may
    well negate any success it may have in making its systems Y2K compliant.
    While the Air Force has enlisted the help of the Air Force Audit Agency to
    address some of those concerns, the Air Force must continue its comprehensive
    oversight to ensure that it can address unforeseen problems and delays in the
    next, more difficult phase.

    General Accounting Office Correspondence Report No. AIMD-9%7R (OSD
    Case No. 1471), “Defense Computers: Technical Support Is Key to Naval
    Supply Year 2000 Success,” October 21, 1997. The report states that Naval
    Supply Systems Command had not allocated sufficient resources to the Fleet
    Material Support Office Year 2000 Project Office to ensure that all systems
    interfaces were identified and adequately monitored for progress. Also, Naval
    Supply Systems Command had not directed that risk assessments be performed
    or that contingency plans be prepared at the system and functional levels. As a
    result of the concerns that the General Accounting Office raised, Naval Supply
    Systems Command and Fleet Material Support Office officials have begun
    addressing system interface issues by assigning full-time staff to identify date-
    related data elements in interface files and to ensure that date formats are
    compatible. The actions, together with Naval Supply Systems Command’s
    plans for requiring systems managers to perform risk assessments and develop
    contingency plans for critical systems, should help mitigate the loss of
    operational capability at the year 2000. As Naval Supply Systems Command
    progresses to the renovation, validation (testing), and implementation phases of

                                        13
Appendix B. Prior Coverage and Related Publications

      the Y2K program, it must pay continued attention to those issues to better
      ensure that the year 2000 challenge is met. The Director, Test, Systems
      Engineering and Evaluation, concurred with a draft of this report,

      General Accounting Office Report No. AIMD-97-149 (OSD Case No. 1446),
      “Defense Computers: Logistics Systems Support Center Needs to Confront
      Significant Year 2000 Issues,” September 26, 1997. The report states that
      while Y2K improvement efforts have been initiated by the Logistics Systems
      Support Center on its Commodity Command Standard System program, the
      Logistics Systems Support Center has not completed several key project
      management actions associated with the assessment phase. As a result, the
      Logistics Systems Support Center is not presently well-positioned to move to the
      more difficult phases of renovation, validation, and implementation in the Y2K
      process phases that industry experts estimate could consume as much as three-
      fourths of Y2K project time and resources. The report recommends that the
      Logistics Systems Support Center still needs to take a number of actions to
      increase its chances of success, including managing competing workload
      priorities, planning for testing, clarifying and coordinating written systems
      interface agreements, and developing a contingency plan. To increase its
      chances of successfully managing its Y2K program, the Logistics Systems
      Support Center will also need to institutionalize a repeatable software change
      process that can be used from project to project. Given the prominence of date
      processing in the Commodity Command Standard System and its central mission
      of sustaining the solider in the field, the Logistics Systems Support Center
      cannot delay any longer, and must demonstrate that it will perform all the key
      actions associated with sound Y2K planning and management. The Director,
      Test, Systems Engineering and Evaluation, concurred with a draft of the report.

      General Accounting Office Correspondence Report No. AIMD-97-120R
      (OSD Case No. 1399), “Defense Computers: Standard Systems Group
      Needs to Sustain Year 2000 Progress,” August 19, 1997. The report states
      that the Standard Systems Group must further emphasize management and
      oversight of systems interfaces to ensure successful implementation of Y2K-
      compliant systems throughout its user community. Also, a number of Standard
      Systems Group systems must use standard interface message formats to
      exchange data that are defined by external entities outside the control of the
      Standard Systems Group. Some of the message formats had not been finalized
      by the organizations responsible for their definition. Recently, officials from
      the Standard Systems Group’s Year 2000 Project Office began addressing the
      interface issue. If effectively implemented by the project office, the effort
      should be a positive step toward preventing loss of operational capabilities
      between the Standard Systems Group’s internal and external systems’ interface
      message formats at the year 2000. The Air Force Director, Communications
      and Information, concurred with a draft of the report.

      General Accounting Office Report No. AIMD-97-112 (OSD Case No. 1395),
      “Defense Computers: Improvements to DOD Systems Inventory Needed for
      Year 2000 Effort,” August 13, 1997. The report states that while
      improvement efforts have been initiated, the Defense Integration Support Tools
      database will not be usable and reliable in time to have a beneficial impact on
      Y2K correction efforts. The Defense Integration Support Tools contains the
                                          14
                      Appendix B. Prior Coverage and Related Publications

DOD-wide inventory of automated information systems. The report
recommended investigation of all duplicate, inactive, and incomplete entries;
expedited development and implementation of the purging methodology; and
expansion of information contained in the database for individual systems to
include key program activity schedules that managers of interfacing systems
need to ensure that their systems’ interfaces are maintained during the
renovation phase. The Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) concurred with the recommendations and
stated that DOD plans to take corrective action by performing statistical
sampling of the Defense Integration Support Tools database to validate
accuracy.

General Accounting Office Report No. AIMD-97-106 (OSD Case No. 1389),
“Defense Computers: Issues Confronting Defense Logistics Agency in
Addressing Year 2000 Problems,” August 12, 1997. The report states that
the Defense Logistics Agency had already assessed the Y2K impact on its
operations; inventoried its systems; conducted pilot projects to determine Y2K
effects on some of its major systems; and developed and issued policies,
guidelines, standards, and recommendations on Y2K correction for the agency.
The Defense Logistics Agency had not prioritized the 86 automated information
systems that it plans to have operational in the year 2000 to ensure that mission-
critical systems are corrected first. In addition, the Defense Logistics Agency
had not developed contingency plans in the event that any of the systems cannot
be corrected on time. The report recommended that the Defense Logistics
Agency complete signed, written interface agreements detailing data exchange
methods; develop a Y2K systems prioritization plan; and prepare contingency
plans for all critical systems. The Under Secretary of Defense for Acquisition
and Technology concurred with the recommendation on interface agreements
and contingency plans but did not concur with the recommendation on systems
prioritization, stating that the Defense Logistics Agency planning efforts and
strategy for renovating its systems are adequate. The Defense Logistics Agency
is in the process of ensuring that documented agreements are prepared for all
interfaces requiring changes between their interface partners. Completion was
expected in September 1997. The Defense Logistics Agency is also in the
process of preparing contingency plans within each business area focusing on
those systems that Y2K will affect. Initial plans were to be prepared by October
1997.

General Accounting Office Report No. AIMD-97-117 (OSD Case No. 1392),
“Defense Computers: Defense Finance and Accounting Service Faces
Challenges in Solving the Y2K Problems,” August 11, 1997. The report
states that the Defense Finance and Accounting Service had developed a Y2K
strategy consistent with the DOD Y2K Management Plan and has defined
conditions that automated information systems must meet to obtain certification
as Y2K compliant. However, the Defense Finance and Accounting Service had
not identified all critical tasks for achieving Y2K objectives, established
milestones for completing all tasks, performed formal risk assessments of all
systems to be renovated, or prepared contingency plans in the event that
renovations are not completed in time or fail to operate properly. The report
also states that the Defense Finance and Accounting Service had not identified
all system interfaces and had completed only 230 of 904 written agreements
                                    15
Appendix B. Prior Coverage and Related Publications

      with interface partners. Further, the Defense Finance and Accounting Service
      had not adequately ensured that testing resources will be available to determine
      whether all operational systems are compliant before the year 2000. The report
      recommended that the Defense Finance and Accounting Service identify Y2K
      program actions and milestones, issue guidance to ensure continuity of
      operations, identify external interfaces and obtain written agreements describing
      the method of data exchange, and devise a testing schedule to ensure that all
      systems can operate in a Y2K environment. The Under Secretary of Defense
      (Comptroller) concurred with the recommendations. The Defense Finance and
      Accounting Service agreed to update its existing Year 2000 Executive Plan and
      its Corporate Contingency Plan. It also agreed to have all written interface
      agreements with interface partners in place by September 30, 1997, and to fully
      implement its certification process for ensuring that all systems are Y2K
      compliant. Further, the Defense Finance and Accounting Service agreed to
      devise a testing schedule that identifies the test facilities and resources needed
      for performing proper testing of its systems in a Y2K environment.
      General Accounting Office Publications. Among the publications that the
      General Accounting Office issued relating to the Y2K problem are the Exposure
      Draft (GAO/AIMD-10. 1.14), “Year 2000 Computing Crisis: An Assessment
      Guide,” February 1997; and the Exposure Draft (GAO/AIMD-10.1.17),
      “Year 2000 Computing Crisis: Audit Program Guide,” June 1997. The
      assessment guide provides a framework and a checklist for assessing the
      readiness of Federal agencies to achieve Y2K compliance. The assessment
      guide provides information on the scope of the challenge and offers a structured
      approach for reviewing the adequacy of agency planning and management of the
      Y2K program. The audit program guide provides information technology
      system auditors with more detailed guidelines to use in reviewing individual
      agency efforts in solving Y2K issues.


Inspector General, DOD
      Inspector General, DOD, Report No. 98-065, “DOD Information Technology
      Solicitations and Contract Compliance for Year 2000 Requirements,”
      February 6, 1998. The review focuses on the compliance of DOD information
      technology solicitations and contracts with Federal Acquisition Regulation
      section 39.106, “Y2K Compliance. ” The report states that 20 of the reviewed
      35 indefinite-delivery/indefinite-quantity and indefinite-delivery-requirement
      information technology contracts (for commercial off-the-shelf products) did not
      have the required Federal Acquisition Regulation Y2K compliance language,
      and none of the 35 contracts required testing of purchased products. As a
      result, DOD has no assurance that information technology products purchased
      were Y2K compliant. Further, the purchase of noncompliant products may
      seriously hamper the ability of DOD to perform its administrative and
      warfighting mission requirements. Additionally, because 33 of the 35 contracts
      are available for use by other Federal agencies, nonconforming contract items
      could negatively affect the ability of the Federal Government to survive the
      Y2K crisis. After the audit results briefing, the Acting Assistant Secretary of
      Defense (Command, Control, Communications, and Intelligence) and the
                                          16
                      Appendix B. Prior Coverage and Related Publications

Director, Defense Procurement, drafted new guidance for the DOD Components
that would require Y2K-compliant information technology and testing of items
purchased from the information technology contracts. The guidance was later
signed by the Acting Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence). In addition, Army, Navy, and Air Force
contracting officers completed the contract modifications to include the required
Federal Acquisition Regulation Y2K language in 17 additional contracts. Three
other Air Force contracts are being reviewed.

Inspector General, DOD, Report No. 98-074, “Sharing Year 2000 Testing
Information on DOD Information Technology Systems,” February 12, 1998.
The review focused on whether planning for year 2000 testing is adequate to
ensure that mission critical DOD information technology systems will continue
to operate properly after the year 2000. While DOD has designated the use of
Internet homepages as the primary means of sharing year 2000 related
information and DOD Components have made progress in establishing year 2000
information on their respective homepages, the process for sharing year 2000
testing information can be more effective. The report states that DOD
Components may be expending time-sensitive resources inefficiently in solving
the year 2000 problem through the duplication of efforts and in attempting to
locate accurate testing information. Further, the ability to retrieve and use all
appropriate testing information in a timely and efficient manner will be
instrumental in the solution of the year 2000 problem. The report
acknowledged actions taken by the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) to establish a DOD-sponsored year
2000 testing information center for collecting, analyzing, and disseminating year
2000 related testing information, and initial efforts to provide a year 2000
hotline service to the DOD Components. The report recommended that
additional action be taken to notify DOD Components of the testing center’s year
2000 role and responsibilities and of the DOD Components’ responsibility to
share testing information. The report also recommended that DOD internet
homepages be organized to enable users to quickly and easily access the center
for year 2000 testing information.




                                    17
Appendix C. DOD Component August 1997
Reports
                                                    Mission-      Five-Phase Management Process
                                      Total         Critical    Assess- Reno- Vali-     Imple-
DOD Component                        Systems        Systems      ment    vation dation mentation

Army                                 13,687           367        152      44         16       16
Navy                                  1,970           289        68       54         5       28
Air Force                             2,584           395        174      65        31         4
Joint Staff                             302           169         17      59        37         1
Ballistic Missile
 Defense Organization                    75              37       16        1         1        0
Defense Contract Audit Agency             1               1        0       0         0         0
Defense Commissary Agency                36               7        1       2          1        3
Defense Finance and
 Accounting Service                     186              91      24       45         2         0
Defense Intelligence Agency             109           109        90        6         13        0
DOD Intelligence Information
 System*                                109           109        46       26        25         0
Defense Investigative Service             7               0        0       0         0         0
Defense Information Systems
 Agency                                 339           106          0      56          1        5
Defense Logistics Agency                333              14        0       6         6         0
Defense Security Assistance
 Agency                                  11               4        0       3         0         1
Defense Special Weapons Agency          115              10        1       0         0         2
National Imagery and Mapping
 Agency                                 222           175         19      40         0         0
National Reconnaissance Agency           27              27      24        3         0         0
National Security Agency              1,573         1,573      1,070     320        53       53
Office of the Assistant Secretary
 of Defense (Health Affairs)            112           112        27       15         6       24
Armed Forces Information
 Services                                 0               0        0       0         0         0
On-Site Inspection Agency                41               0       0        0         0         0
Under Secretary of Defense for
 Acquisition and Technology              75               0        0       0         0         0
Washington Headquarters Services    1 3 6             100      8        12         27       5
  Total                             22,050          3,695      1,737    757        224      142
*Portion centrally funded for the Armed Services.


                                                    18
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Acquisition Reform)
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Procurement
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
Assistant Secretary of Defense (Health AfYairs)
Assistant Secretary of Defense (Public Affairs)

Joint Chiefs of Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army
Chief Information Officer, Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Chief Information Officer, Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General. Deuartment of the Air Force
Chief Information dfficer, Air Force

Unified Commands
Commander    in Chief, U. S   European Command
Commander    in Chief, U.S    Pacific Command
Commander    in Chief, U.S.   Atlantic Command
Commander    in Chief, U.S.   Southern Command

                                              19
Appendix D. Report Distribution

Unified Commands (Cont’d)
Commander in Chief, U.S. Central Command
Commander in Chief, U.S. Space Command
Commander in Chief, U.S. Special Operations Command
Commander in Chief, U . S . Transportation Command
Commander in Chief, U.S. Strategic Command

Other Defense Organizations
Director, Ballistic Missile Defense Organization
   Chief Information Offricer, Ballistic Missile Defense Organization
Director, Defense Advanced Research Projects Agency
   Chief Information Officer, Defense Advanced Research Projects Agency
Director, Defense Commissary Agency
   Chief Information Officer, Defense Commissary Agency
Director, Defense Contract Audit Agency
   Chief Information Officer, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Chief Information Officer, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
   Inspector General, Defense Information Systems Agency.
   Chief Information Officer, Defense Information Systems Agency
Director, Defense Legal Services Agency
   Chief Information Officer, Defense Legal Services Agency
Director, Defense Logistics Agency
   Chief Information Offricer, Defense Logistics Agency
Director, Defense Security Assistance Agency
   Chief Information Officer, Defense Security Assistance Agency
Director, Defense Security Service
   Chief Information Offker, Defense Security Service
Director, Defense Special Weapons Agency
   Chief Information Officer, Defense Special Weapons Agency
Director, National Security Agency
   Inspector General, National Security Agency
Director, On-Site Inspection Agency
   Chief Information Offker, On-Site Inspection Agency
Inspector General, Defense Intelligence Agency
Inspector General, National Imagery and Mapping Agency

Non-Defense Federal Organizations and Individuals
Chief Information Officer, General Services Administration
Office of Management and Budget
   Offke of Information and Regulatory Affairs
Technical Information Center, National Security and International Affairs Division, General
   Accounting Offke


                                               20
                                                            Appendix D. Report Distribution

Non-Defense Federal Organizations and Individuals (Cont’d)
Director, Defense Information and Financial Management Systems, Accounting and Information
   Management Division, General Accounting Office

Chairman and ranking minority member of each of the following congressional committees and
  subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal Justice,
    Committee on Government Reform and Oversight
  House Committee on National Security




                                              21
Part III - Management Comments
Office of Assistant Secretary of Defense
(Command, Control, Communications, and
Intelligence) Comments

                     ASSISTANT SECRETARY OF DEFENSE
                            6C00 D E F E N S E P E N T A G O N
                           WASHINGTON.   DC    203016000

                                 January 15, 1998




    MEMORANDUM FOR DIRECTOR, ACQUISITION MANAGEMENT DIRECTORATE,
                     OFFICE OF THE INSPECTOR GENERAL, DOD

    SUBJECT:     Response to the Office of the Inspector General (OIG),
                 DOD Draft Audit Report on Year 2000 Information
                 Technology System Reporting Requirements,
                 Project No. 7RE-6023, dated November 26, 1997


         Thank you for the opportunity to review and comment on your
    November 26, 1997, draft audit report on reporting requirements
    for Year 2000 (Y2K) information technology systems.   We have
    reviewed the report and agree that an update of the Department
    of Defense (DOD) Year 2000 Management Plan is needed.   The
    report recommended, in addition, that the DOD Components be
    required only to report necessary and useful oversight
    information.   Attached are my comments on the report's
    recommendations along with some specific comments that respond
    to several of the report's findings.

         We appreciate the opportunity to work with the OIG audit
    team and to exchange information on the Y2K project.   The audit
    is helpful for ensuring that the D OD maintains a reliable
    reporting mechanism that will satisfy the requirements of both
    the Department and the oversight agencies to whom we report our
    progress.  Also, the audit has highlighted areas where the
    Department may improve the information collection process.
    Please incorporate this memorandum, along with the attachment,
    in the final audit report.




    Attachment
                                          r”
                                       (Act’ g)




                                       24
Office of Assistant Secretary of Defense (Command, Control, Communications,
                                                 and Intellkence) Comments

                                                                              Final Report
                                                                               Reference




              Responms to the Office of the Inspector General (OIG)
                            DoD Draft Audit Report on
        nYear 2000 Information Technology Syatrrm Reporting Requirement@
                  Project No. 7RR-6023, dated November 26, 1997


       Recommendation 1:  The DoDIG recommended an update to the DOD
       Year 2000 Management Plan reflecting changes in reporting              Unnumbered
       requirements and including adequate procedures on how year 2000
       quarterly reports should reconcile.

       Reapones: Concur. Procedures for reporting progress each
       quarter in evaluating and repairing automated information
       systems (AISs) and devices controlled by information technology
       have been widely disseminated through meetings and electronic
       media. However, the Department agrees that revising the DOD
       Year 2000 Management Plan would codify these informal
       instructions into a single document.

            The DOD Components have been participating with the DOD
       Chief Information officer's staff in revising the Plan since
       August 1997. Section 9. ‘DOD System Inventory and Quarterly
       Reporting Requirements," provides thorough instruction on
       providing progress status in addressing the Year 2000 (Y2K)
       problem, including directions on balancing the numbers that are
       reported. Balanced data insures reliability of the information
       DOD provides to Congress and others.   The Department has delayed
       the publishing of the second edition of the Management Plan in
       order to include revised requirements under development by the
       Office of Management and Budget (OMB).   The revised Plan is
       projected for publication in February 1998.

       Recommendation 2; The OIG recommended that the reporting
       requirements be revised for DOD Components to ensure that only         Deleted
       necessary and useful oversight information is reported.

       Respoasez Non-concur.   The Department understands that the
       Components may find the currently required reporting onerous.
       However, it has not been the intent of the Department to levy
       reporting that is not needed. Most reporting requirements come
       from Congress and OMB. Their interest and new requirements will
       increase.

            The information we are currently collecting will continue
       to be required, along with additional information. For example,
       the Office of Management and Budget (OMB) published their third
       report "Progress on Year 2000 Conversion* in December 1997.




                                      25
               Office of Assistant Secretary of Defense (Command, Control, Communications,
               and Intelligence) Comments

Final Report
 Reference




                       That report accelerates target dates for completing renovation
                       to September 1998 and implementation to March 1999.  Systems
                       that cannot meet this schedule must be reported in upcoming
                       quarterly reports. OMB is requiring independent verification of
                       progress and has tasked the CIO Council to develop government-
                       wide best practices in contingency planning. Data exchanges
                       with States must be inventoried by February 1, 1998, and Federal
                       agencies must communicate the precise format of the data
                       exchanges and the timing of the change to the new format by
                       March 1, 1998.

                            None of the pre-existing OMB requirements have been
                       rescinded. OMB has in preparation at this time, a draft letter
                       which includes a requirement to provide more thorough
                       information on efforts to fix non-mission critical system, data
                       exchange information, the status of validation and contingency
                       planning efforts, more extensive embedded chip data, and
                       progress status in fixing other government-wide systems. Much
                       of this information we are not yet collecting.

                            Therefore, we find the OIG recommendation to minimize
                       reporting requirements unattainable. External Y2K "reporting
                       requirements" will increase.

                       Additional Commenta:

Deleted                Page 5, Year 2000 Information Technology System Reporting
                       Requirements, last sentence:   "Additionally, the Chief
                       Information Officer for DOD collects information not required by
                       the Office of Management and Budget and which is of limited use
                       for oversight purposes."

                       Conment t There was no information collected from the Components
                       for the third Quarterly Report to OMB that was not used in the
                       report.  The only questionable information may stem from a data
                       item on interfaces outlined on the reporting spreadsheets.   The
                       Components were instructed to disregard the interface issues
                       until my office provided improved guidance. None of the
                       Components reported interface data.

                       Page 6, Component Quarterly Reports, sentences 2 and 3:   "The
Page 5                 CIO staff believed that the reports for the second quarter were
                       substantially more complete and accurate because the DOD
                       Components better understood the reporting requirements.
                       However, our analyses of the reports for the second quarter did
                       not confirm that belief."




                                                                                          2




                                                      26
Office of Assistant Secretary of Defense (Command, Control, Communications,
                                                 and Intellkence) Comments

                                                                               Final Report
                                                                                Reference




       comment I  The next paragraph, Completeness of Reports, indicates
       that the CIO staff was correct: the Components did show
       improvement in their submittals. Those Components who provided
       data that was "incomplete" did not report embedded chip
       information.   This information is more difficult to accumulate
       and verify. Also, the five DOD Components who did not submit a
       report, but requested that the DIST be used to generate their
       reports were compliant with the DOD reporting requirement in
       making this request.

       Paga  0, Usefulness of Required Data: 'We concluded that some
       data that CIO required was of little use for oversight purposes.
                                                                               Deleted
       Although the primary concern of OMB personnel was mission
       critical systems, they also required a brief narrative
       summarizing progress made in other infrastructure systems that
       relied on embedded microchips, such as elevators, security
       systems, and biomedical devices. Within the infrastructure
       reporting category, the CIO requires Components to report
       personal computers, file servers, and communications hardware
       and software modules."

       Comment : The DOD CIO asked for a one-line entry for each of
       these devices not associated with an AIS. All must be checked
       for Y2K compliance. It.is part of the oversight process to
       accumulate the information that they have been checked and what
       their Y2K status is. There is not an inventory of the total
       number of DOD personal computers and network components or of
       the total number of bio-medical devices. The fact remains,
       however, that this equipment must be evaluated for Y2K
       compliance.  The Single Agency Manager for our organization
       acceptance tests each new personal computer as it is delivered
       and has found that 30% or more of these new deliveries are non-
       compliant.




                                                                           3




                                      27
Audit Team Members

This report was prepared by the Acquisition Management Directorate, O&e of the
Assistant Inspector General for Auditing, DOD.

Thomas F. Gimble
Patricia A. Brannin
Mary Lu Ugone
James W. Hutchinson
Timothy J. Harris
Maria R. Palladino
